 "OEF 1325.8
(U8-93)
United States Government                                                                Department of Energy


memorandum
        DATE:
                  April 11, 2007                                       Audit Report Number: OAS-L-07-I1
   REPLY TO
   ATTN OF:       IG-32 (A07DN056)

  SUSJECT:        Audit of the Department of Energy's Community and Regulatory Support
                                                                                       Funding at the Richland
                  Operations Office

         TO:      Manager, Richland Operations Office

                  INTRODUCTION AND OBJECTIVE

                   The Department of Energy's (Department) Office of Environmental Management provided
                   $60.1 million in Community and Regulatory Support funding in Fiscal Year (FY) 2005 to
                   a number of Departm- nt sites. The funding is intended to be used for activities indirectly
                  related to nuclear and hazardous waste cleanup, such as agreements with state regulatory
                  agencies and transportation departments. During FY 2005, the Department's Richland
                  Operations Office (Richland) received $15.6 million. Richland provided funding to
                ..various regulatory agencies and state and local governments including the Washington
                  Departments of Ecology (Ecology) and Health (Health), which received $7.1 million
                                                                                                          in
                  FY 2005. Funding purposes included: providing for regulatory costs incurred by the
                                                                                                          State
                  of Washington for oversight of Hanford Site cleanup and closure activities;
                                                                                               grants for
                  emergency preparedness; and, payments-in-lieu of taxes for local counties that the
                                                                                                      Hanford
                  Site occupies.

                The objective of this audit was to determine if the Department is ensuring that Community
                and Regulatory Support funds are spent for the intended purpose and in the most
                                                                                                  effective
                manner.

                CONCLUSIONS AND OBSERVATIONS

                 While the Department generally established controls to ensure that its Community
                                                                                                      and
                Regulatory Support funding at Richland was spent for the purposes intended and
                                                                                                    in the
                most cost effective manner, we noted two instances where further action is warranted.
                First, although Richland and Ecology established an oversight process
                                                                                         to monitor Ecology
                expenditures of Department funds, the cost detail was not sufficient
                                                                                     to ensure that funds
                were spent for the intended purpose. For example, cost information
                                                                                      provided by Ecology
                was not sufficiently detailed to alert Richland that more than $300,000 in
                                                                                            Department
                funds had been expended for litigation activities which Richland had
                                                                                       previously indicated
                was unallowable. These funds involved Ecology's legal defense of a cleanup-related
                Washington state ballot initiative that the Department was challenging.
    Additionally, Richland had not resolved its need for more detailed
                                                                          cost information from
    Health for the Hanford Site Air Emissions Program (Emissions Program),
                                                                                  which is being
    funded with about $1.5 million per year in Community and Regulatory
                                                                                Support funds.
   This detail is needed to ensure that funds are being spent for their
                                                                         intended purpose and in
   the most effective manner. Since 2003, Richland has notified Health
                                                                             about concerns
   regarding this program, including a lack of: sufficient detail on invoices
                                                                                for payment, such
   as which facilities Health was reviewing and which regulations
                                                                     were being reviewed to
   determine compliance; a clearly defined work scope, which led
                                                                     to questions about the type
   of charges Richland would reimburse; and, a basis for Health's budget
                                                                              request. Health
   currently requests funding in an electronic mail to Richland as a
                                                                      single line item, without a
  detailed breakdown of costs. Likewise, a February 2003 Office
                                                                      of Environmental
  Management review of the Emissions Program found that reporting
                                                                           requirements were not
  rigorous.

  It is important to note that Richland had established a process to receive
                                                                             detailed cost
  information from another Health program recipient of Community
                                                                        and Regulatory Support
  funding. This cost information was detailed to include a breakdown
                                                                         of budgeted costs,
  detailed work scope descriptions, and estimated time charges
                                                                 for Health employees.
  Without more detailed funding and expenditure information from
                                                                      Ecology and Health, the
  Department is at risk of being inappropriately charged for questionable
                                                                            costs such as the
  cleanup initiative.

 In response to these concerns, we suggested that your office
                                                              improve the expenditure
 oversight process with Ecology and establish a process for
                                                            Health's Air Emissions Program
 to provide cost information necessary to meet needs; and, make
                                                                 a formal determination on
 the allowability and recovery of Department funds spent by
                                                              Ecology on the legal defense
 of the initiative.

 The Office of Environmental Management and your office
                                                        agreed with the     suggested
 actions and planned to conduct more detailed review and discussion
                                                                    of 1) invoices at
 regularly scheduled quarterly meetings with Ecology, and
                                                             2) planning, budgeting and
 invoicing linked to Hanford cleanup activities and schedules
                                                                 with Health. In addition,
 Richland is seeking repayment of Ecology legal expenditures
                                                                 for the initiative, and is
 currently determining whether it can honor Ecology's request
                                                                 to defer repayment until an
 appeals court decision is reached on the constitutionality of
                                                               the initiative.
 SCOPE AND METHODOLOGY

The audit was performed between April 2006 and January
                                                        2007 at the Department's
Richland Operations Office and the Washington Departments
                                                           of Ecology and Health, all in
Richland, Washington. The scope of the audit focused primarily
                                                               on expenditures in Fiscal
Year 2005.

 To accomplish the audit objective, we obtained and reviewed
                                                               Department and State of
Washington laws, regulations, policies,.and procedures
                                                         relevant to the funding of
.community and regulatory support activities; reviewed
                                                        recipient budget, cost, and work
scope information to determine if controls were in place to ensure
                                                                    that funds were spent
effectively and for the intended purpose; reviewed the
                                                       results of prior audits and reviews;

                                      2
  and, held discussions with officials from Richland, the Office
                                                                 of Environmental
  Management, and the Washington Departments of Ecology
                                                               and Health.
  The audit was performed in accordance with generally accepted
                                                                      Government auditing
  standards for performance audits and included tests of internal controls and compliance
  with laws and regulations to the extent necessary to satisfy the audit objective.
  Accordingly, we assessed the Department's controls over community
                                                                          and regulatory
  support funding to recipients. Because our review was limited,
 have disclosed all internal control deficiencies that may have     it would  not necessarily
                                                                 existed at the time of our
 audit. Also, we considered the establishment of performance
                                                                  measures in accordance with
 the Government Performanceand Results Act of 1993 as
                                                             they related to the audit objective.
 We found that the Department had not established performance
                                                                    measures for expenditures
 of community and regulatory support funds. We relied only
                                                                to a limited extent on
 computer-processed data from funding recipients to accomplish
                                                                    our audit objective.
 Accordingly, we did not test the reliability of the data.

 We discussed the audit results and suggested actions with Ric h l
                                                                   and officials in January
 2007. Because no formal recommendations are being made in
                                                                 this report, a formal
 response is not required. We appreciate the cooperation of
                                                            your staff during our review.




                                         re ric G. Pieper, Director
                                        Energy, Science and Environmental
                                          Audits Division
                                        Office of Inspector General
cc:    Chief of Staff
       Assistant Secretary for Environmental Management
       Team Leader, Audit Liaison Team, CF-1.2
       Audit Liaison, Office of Environmental Management,
                                                          EM-43
       Audit Liaison, Richland Operations Office




                                    3
